No. 19-__

 

 

IN THE

Supreme Court of the Anited States

NEw YorK REPUBLICAN STATE COMMITTEE,

Petitioner,
v.

SECURITIES AND EXCHANGE COMMISSION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

PETITION FOR A WRIT OF CERTIORARI
CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,595 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 16, 2019.

I

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.

   
